                                                                   REPORT TO THE MINE SAFETY

U.S. Department of Labor                                           AND HEALTH ADMINISTRATION



                     Office of Inspector General—Office of Audit




                                                                   MSHA LABORATORIES HAVE IMPROVED
                                                                   TIMELINESS, BUT THE OVERALL SAMPLING
                                                                   PROCESS COULD BE ENHANCED




                                                                                       Date Issued:   September 19, 2014
                                                                                    Report Number:      05-14-002-06-001
U.S. Department of Labor                                      September 19, 2014
Office of Inspector General
Office of Audit
                                                              MSHA LABORATORIES HAVE IMPROVED
                                                              TIMELINESS, BUT THE OVERALL SAMPLING
                                                              PROCESS COULD BE ENHANCED
BRIEFLY…
                                                              WHAT OIG FOUND
Highlights of Report Number 05-14-002-06-001, issued
to the Assistant Secretary for Mine Safety and Health.        MSHA has established timeliness standards for the
                                                              collection and mailing time for only some sample types.
WHY READ THE REPORT                                           While the remaining types of samples are not as
                                                              time-sensitive or subject to sample degradation,
Mine air can contain toxic substances or flammable            establishing and implementing performance standards
concentrations of gases. In addition, coal mining             is still important in protecting miners.
practices can deposit an explosive layer of coal dust on
mine surfaces. To help detect these conditions, MSHA          MSHA has established performance standards for the
operates laboratories (labs) that test samples of air,        analysis and reporting phase of the process for all
gases, dusts, and solids sent by mine inspectors and          sample types. Specifically, the labs have implemented
operators around the country in order to improve mine         standard operating procedures that dictate the
safety and health. Mine inspectors use lab results to         turnaround times for timely analysis and reporting of
validate citations and orders issued at the time of           samples and results. While MSHA met most of its
sample collection. Mine operators use lab results to          turnaround time goals, the labs did not always receive
identify hazardous conditions. For both, receipt of timely    samples or report the analyses results timely.
results is critical to miner safety.
                                                              Without a unified performance standard, which covers
This report highlights actions MSHA should take to            the entire cycle time from collection to results, MSHA
establish and implement performance standards that            does not know how quickly it is mailing, analyzing, and
cover the full sampling life cycle from collection to lab     reporting sample results that are critical to ensuring the
processing.                                                   safety and health of miners.

WHY OIG CONDUCTED THE AUDIT                                   WHAT OIG RECOMMENDED

Since the receipt of timely lab results may be critical for   The OIG recommended the Assistant Secretary for
miner safety, we designed our audit to answer the             Mine Safety and Health: (1) re-evaluate the
following questions:                                          appropriateness of the TATs for mine air/gas and MNM
                                                              total dust samples; (2) establish and implement
       Has MSHA established and implemented                  collection and mailing time standards for MNM total
        timeliness performance standards for sample           dust, MNM respirable dust, coal quartz, and coal
        collection, analysis, and results reporting?          respirable dust samples not overnighted by an inspector
                                                              or submitted by a mine operator; (3) establish agency
       Is MSHA meeting the established performance           performance standards and supporting policies based
        standards?                                            on full life cycle sampling, and implement a system for
                                                              tracking life cycle samples exceeding the goals for all
READ THE FULL REPORT                                          sample types; (4) consider pursuing accreditation for
                                                              the mobile labs; and (5) take steps needed to ensure
To view the report, including the scope, methodology,         IPAL uploads occur timely.
and full agency response, go to:
http://www.oig.dol.gov/public/reports/oa/2014/05-14-          In response, MSHA generally agreed with our findings
002-06-001.pdf.                                               and either plans to, or has already initiated, various
                                                              corrective actions.
           U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                Timeliness of MSHA Laboratories
                                   Report No. 05-14-002-06-001
                                                      U.S. Department of Labor – Office of Inspector General



Table of Contents

Inspector General’s Report .......................................................................................... 1

Background ................................................................................................................... 2

Objective 1 — Has MSHA established and implemented timeliness performance
standards for sample collection, analysis, and results reporting? .......................... 3
         MSHA has not established and implemented performance standards for
           the entire sample analysis cycle...................................................................... 3

Objective 2 — Is MSHA meeting the established performance standards? ............ 5
         MSHA labs mostly meet their TAT goals, but other factors may delay the
           process............................................................................................................ 5

Recommendations ........................................................................................................ 9

MSHA’s Response......................................................................................................... 9

Appendices .................................................................................................................. 11
         Appendix A Objectives, Scope, Methodology, and Criteria ................................ 13
         Appendix B Acronyms and Abbreviations........................................................... 15
         Appendix C MSHA Response to Draft Report .................................................... 17
         Appendix D Acknowledgements ......................................................................... 21




                                                                                   Timeliness of MSHA Laboratories
                                                                                      Report No. 05-14-002-06-001
         U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                              Timeliness of MSHA Laboratories
                                 Report No. 05-14-002-06-001
                                                U.S. Department of Labor – Office of Inspector General


U.S. Department of Labor                            Office of Inspector General
                                                    Washington, D.C. 20210




September 19, 2014

                                      Inspector General’s Report


Joseph A. Main
Assistant Secretary
 for Mine Safety and Health
U.S. Department of Labor
1100 Wilson Blvd.
Arlington, VA 22209

The purpose of the Mine Safety and Health Administration (MSHA) is to prevent death,
disease, and injury from mining and to promote safe and healthful workplaces for the
nation’s miners. Mine air can contain toxic substances or flammable concentrations of
gases. In addition, coal mining practices can deposit an explosive layer of coal dust on
mine surfaces. MSHA operates laboratories (labs) that test samples of air, gases, dusts,
and solids sent by mine inspectors and operators around the country in order to improve
mine safety and health. MSHA collects and analyzes six different types of samples. Our
audit focused on all six sample types.

The Office of Inspector General (OIG) conducted this performance audit to answer the
following questions:

    •   Has MSHA established and implemented timeliness performance
        standards for sample collection, analysis, and results reporting?

    •   Is MSHA meeting the established performance standards?

Our audit work covered all six sample types received by MSHA’s Pittsburgh Safety and
Health Technology Center (PSHTC) and National Air and Dust Laboratory (NADL) labs
for Fiscal Years (FY) 2012 and 2013.

We conducted this performance audit to complement a prior OIG report, 1 in which we
recommended MSHA re-evaluate the performance standard for timely completion of lab
tests on samples that yield enforcement related data. As a result, MSHA made several
improvements, including establishing a new mine dust turnaround time (TAT)
performance standard of 9 days and implementing new procedures and upgrades for
NADL.


1
 In 32 Years MSHA Has Never Successfully Exercised Its Pattern of Violations Authority (Report No. 05-10-005-06-
001), September 29, 2010.

                                                                            Timeliness of MSHA Laboratories
                                                        1                      Report No. 05-14-002-06-001
                                                U.S. Department of Labor – Office of Inspector General


Overall, we found MSHA has established and implemented performance standards for
the time it takes its labs to analyze samples. For some sample types, MSHA also
established standards for the time by which a sample must be shipped to the labs after
collection. However, it does not have a unified performance measure that covers the
entire sample process from collection to reporting results. We also found that while
MSHA met most of its TAT goals, the labs did not always receive the samples or report
the analyses results in a timely manner.

Background

The Directorate of Technical Support provides engineering and scientific expertise to
assist MSHA, the states, and the mining industry in the resolution of safety and health
issues. Among the activities conducted by MSHA are testing of various types of mine
samples, including mine dust, metal/nonmetal (MNM) respirable dust, coal respirable
dust, MNM total dust, gas and organic
samples.

The PSHTC, located in Bruceton, PA,
carries out these activities.
Specifically, the PSHTC maintains a
specialized group of trained personnel
who offer expertise in the identification,
prevention, and control of health
hazards associated with the mining
environment, such as hazardous
airborne contaminants
(i.e., dusts, fumes, gases and/or
vapors); non-airborne chemicals;
physical agents, such as heat, noise,
and radiation; biological agents; and
ergonomic factors.

The PSHTC operates an American
Industrial Hygiene Association
accredited dust lab that weighs and
conducts analyses of MNM and coal
mine respirable dust samples 2
collected by MSHA enforcement
personnel and/or mine operators.              Image 1: Lab technician preparing mine dust for
Accreditation ensures the methodology analysis at the NADL
utilized by the lab is consistent with industry standards. Other analyses conducted by
the PSHTC at the request of enforcement personnel include gas, 3 diesel particulate, 4
2
 Respirable dust samples are analyzed for quartz (silica) content. Silica is an occupational carcinogen.
3
 Gas samples are analyzed for potential dangerous/explosive mine environments. The following five routine gases
are analyzed: carbon dioxide (CO2), oxygen (O2), methane (CH4), ethane (C2H6), and nitrogen (N2). For fire gas
analyses, the following are analyzed: acetylene (C2H2), argon (Ar), carbon dioxide (CO2), carbon monoxide (CO),
ethane (C2H6), ethylene (C2H4), hydrogen (H2), methane (CH4), nitrogen (N2), and oxygen (O2).

                                                                         Timeliness of MSHA Laboratories
                                                        2                   Report No. 05-14-002-06-001
                                                  U.S. Department of Labor – Office of Inspector General


and trace metals. 5 In addition, PSHTC operates four mobile labs, which are used during
mine emergencies (mine fire or explosion) and are not accredited. The PSHTC also
operates the NADL, located in Mt. Hope, WV. The NADL conducts analyses of mine
dust samples to determine the incombustible content of the dust and analyzes air/gas
samples. MSHA reported the NADL’s application for accreditation has been approved
by the American Association for Laboratory Accreditation and anticipates that final
action on accreditation will be completed by September 30, 2014. In addition, MSHA
informed us that although it lacks the resources and staffing needed to pursue
accreditation for the mobile labs, the agency follows standard operating procedures
(SOP) and quality control measures.

MSHA inspectors mail samples collected during inspections or investigations to the
appropriate lab (PSHTC, NADL, or the mobile labs) for analysis, and upload sample
information to the MSHA Standardized Information System (MSIS). Mine operators also
mail respirable dust samples collected as required by regulations to the MSHA labs for
analysis. After receipt, lab technicians analyze the samples and determine the results,
which are then reviewed and approved by the lab supervisor or designee. After
approval, the sample analysis results are reported to the submitting party. Inspectors
use lab results to validate citations and orders issued at the time of sample collection.
Mine operators use lab results to identify and correct hazardous conditions.

Objective 1 — Has MSHA established and implemented timeliness performance
              standards for sample collection, analysis, and results reporting?

        MSHA has not established and implemented performance standards for
        the entire sample analysis cycle.

MSHA has established turnaround times for the analysis and reporting of all samples.
However, it does not have a unified performance standard that measures the time from
sample collection to reporting analysis results for all six sample types. Measuring the
complete cycle is critical to identifying breakdowns or problems in the sample analysis
process. Without performance standards that cover the whole cycle, MSHA does not
know how quickly it is mailing, analyzing, and reporting sample results that are critical to
ensuring the safety and health of miners.

The analysis cycle can be broken down into two parts: the sample collection and mailing
process, which is performed by mine inspectors and operators, and the sample analysis
and reporting process, which is performed by the labs. MSHA has established
standards for the time by which inspectors must mail samples after collection only for
some types of samples.


4
  Organic samples are analyzed to determine if elemental and organic carbon in diesel particulates are present in the
workplace atmosphere.
5
  This analysis is conducted to determine the amount of metal and metalloid particulates (silver (Ag), arsenic (As),
beryllium (Be), cadmium (Cd), chromium (Cr), cobalt (Co), copper (Cu), iron (Fe), magnesium (Mg), manganese
(Mn), molybdenum (Mo), Nickel (Ni), lead (Pb), zinc (Zn), vanadium (V), and calcium (Ca) present in the workplace
atmosphere.

                                                                            Timeliness of MSHA Laboratories
                                                          3                    Report No. 05-14-002-06-001
                                                U.S. Department of Labor – Office of Inspector General


Collection and Mailing

MSHA has established timeliness standards for collection and mailing time for only
4 types of samples: mine dust and air/gas samples should be mailed within 3 working
days of collection; certain
coal respirable dust samples
should be shipped overnight;
certain air samples should
be mailed immediately after
collection; and all
operator-collected respirable
dust samples must be mailed
within 24 hours of the end of
the sampled shift. 6 MSHA
has not established mailing
time performance standards
for remaining coal respirable
dust, coal quartz, MNM total
dust, and MNM respirable
dust samples.
                                        Image 2: Custom Gerstel Autosamplers holding Vacutainers®
                                        at the NADL
Because certain air samples
have limited shelf lives, MSHA recognizes time is important in the collection, mailing,
analysis, and reporting steps. Inspectors typically use a Vacutainer® (glass container),
50 cubic centimeter bottle, or bistable (reusable metal container) to collect routine air
samples. According to MSHA, air collected in Vacutainers® has a 7-day shelf life.
Because of their relatively short shelf lives, air samples should be mailed immediately
after collection. Samples collected during a mine emergency operation are sometimes
collected in syringes and have a 24-hour shelf life. These samples are hand-delivered to
an MSHA lab and analyzed within hours of collection. Syringe samples are not used for
routine sampling during inspections.

While the remaining types of samples are not as time-sensitive or subject to sample
degradation, establishing and implementing performance standards is still important in
protecting miners. Without performance standards that cover the full cycle, MSHA does
not know if there is a breakdown in the process. During the audit, MSHA committed to
implementing a performance standard covering the entire cycle time for all sample
types.

Analysis and Reporting

The labs generally process samples on a first-in, first-out basis. In the vast majority of
cases, samples are processed immediately upon receipt. However, because the labs
have no way to identify if there was a delay in mailing specific samples when they arrive

6
 Operator-collected respirable dust samples are the same as inspector-collected respirable dust samples, but MSHA
has established a separate mailing time requirement for these samples.

                                                                         Timeliness of MSHA Laboratories
                                                        4                   Report No. 05-14-002-06-001
                                       U.S. Department of Labor – Office of Inspector General


in the mail, they do not have a process in place to prioritize the analysis of samples that
are received late.

MSHA has established performance standards for the analysis and reporting phase of
the process for all sample types. The labs have implemented SOPs that dictate the
TATs for timely analysis and reporting of
                                                      Table 1: Analysis and Reporting
samples and results (see Table 1). The
                                                         Turnaround Time Standards
air/gas TAT for NADL became effective on
October 1, 2012, and the mine dust TAT                 Sample Type         Working Days
became effective on October 22, 2012. The
                                                 Coal respirable dust            2
establishment and implementation of these
                                                 MNM total dust                  2
standards ensures MSHA can determine if
the labs are analyzing samples and reporting     Coal   quartz                   3
results in a timely manner.                      MNM respirable dust             7
                                                 Air/gas                         7
Performance standards are tools government Mine dust                             9
agencies use to measure and improve their performance. Without a unified performance
standard that covers the entire cycle time from collection to results, MSHA cannot
adequately monitor and assess the timeliness of the sample process. To address our
concerns, MSHA indicated it plans to implement a performance standard for all sample
types to cover the entire process cycle.

Objective 2 — Is MSHA meeting the established performance standards?

      MSHA labs mostly meet their TAT goals, but other factors may delay the
      process.

Because MSHA has not established performance standards for all samples that cover
collection and mailing time, we used full cycle time standards where those were
provided by MSHA, and in the remaining cases, we used a calculation for estimated
collection and mailing times. For this section, we focused on the standards for analysis
and reporting because MSHA has established these standards for all sample types.

For five out of six types of samples we tested, the labs were meeting their analysis and
reporting TATs. However, we also found in some cases the labs were not receiving
samples in a timely manner. In other cases, the labs could not report results in a timely
manner because mine inspectors did not always transmit sample information within a
reasonable time.

The labs followed procedures established in the SOPs for receiving and analyzing
samples, and approving and reporting results. The labs received samples directly from
inspectors or via mail, Federal Express, or United Parcel Service. The date of receipt
was recorded into the Laboratory Information Management System (LIMS). The labs
analyzed the samples using techniques specific to the sample type and recorded the
date of analysis into LIMS. In addition, MSHA monitors the lab processes and
compliance with established SOPs as part of its quality assurance program.

                                                            Timeliness of MSHA Laboratories
                                             5                 Report No. 05-14-002-06-001
                                       U.S. Department of Labor – Office of Inspector General


Timely Analysis of Samples

The PSHTC met its TAT goals for MNM and coal mine respirable dust and coal quartz
for both fiscal years. The PSHTC, however, did not meet its TAT goals for mine air/gas
and MNM total dust samples
(see Graph 1 below). On
average, 27 percent of mine
air/gas samples and
25 percent of MNM total dust
samples did not meet
established TATs.

According to MSHA, the
PSHTC did not always meet
its mine air/gas TAT because
it lacks sufficient staff to
analyze the samples, has
only one lab supervisor (who
is needed to approve
results), and uses mobile
testing equipment (that can
be taken off-site) to analyze    Image 3: Agilent 7890 Gas Chromatographs at the NADL
air/gas samples during mine
emergencies. MSHA has established a new procedure to re-route samples to another
MSHA lab when necessary. MSHA believes the PSHTC was also unable to meet the
MNM total dust TATs because the goal MSHA set was too low. MSHA plans to review
and revise the
testing procedures,                Graph 1: Percent of Samples Meeting
including TAT                        Analysis and Reporting TAT Goals
goals, for mine            100%
air/gas and MNM              90%
total dust samples.          80%
                             70%                                                FY 2012
                        60%
During FYs 2011         50%                                                       FY 2013
                        40%
and 2012, the           30%
NADL established        20%
                        10%
new TAT goals,           0%
increased its
staffing,
modernized the
lab, and purchased
new equipment to
increase testing
                       * The FY 2012 NADL mine air/gas TAT goal could not be calculated
capacity. As a         because the data was not available.
result, during FY
2013, the NADL


                                                              Timeliness of MSHA Laboratories
                                              6                  Report No. 05-14-002-06-001
                                                    U.S. Department of Labor – Office of Inspector General


met almost 100 percent of its TAT goals for mine dust and mine air/gas, a marked
improvement from FY 2012 (see Graph 1).

Timely Receipt of Samples

The PSHTC and NADL did not always receive air/gas and dust samples on a timely
basis. MSHA enforcement personnel and mine operators are directed to take samples,
record the collection date, and mail them to the labs for analysis. According to MSHA,
MNM mine inspectors typically report to their assigned field office on Monday and
prepare the samples collected the previous week for mailing to the labs. However,
depending on the inspector’s travel area, there are times when he or she cannot return
to their field office
                                        Table 2: Total Cycle Time in Working Days
with the collected
samples for two                                                                      Total
                                                                       Mailing TAT
                         Lab                   Sample Type                           Cycle
weeks. This could                                                       Time    Goal
                                                                                     Time
affect the integrity
                         PSHTC                 Coal Respirable Dust      7*       2    9
of certain types of
                         PSHTC                 MNM Total Dust            10*      2   12
samples.
                         PSHTC                 Coal Quartz               7*       3   10
As noted earlier,        PSHTC                 MNM Respirable Dust       10*      7   17
MSHA has                 PSHTC     & NADL      Mine Air/Gas               3       7   10
established              NADL                  Mine Dust                  3       9   12
collection and           * Value calculated by OIG
mailing time
performance standards for mine dust and air/gas and coal respirable dust. MSHA’s
policies for the remaining sample types state the samples should be submitted to the
labs “as soon as possible.” The Government Accountability Office (GAO) Standards for
Internal Control in the Federal Government require agencies to establish performance
measures. Prior GAO work identified specific attributes that are key to successful
performance measures. 7 Specifically, performance measures should be clearly stated,
measurable, and reliable. 8 MSHA’s standard for submitting samples “as soon as
possible” does not meet these requirements. Because MSHA has not established
performance measures for every sample type, we based our calculations of late
samples on 7 or 10 working days as the maximum number of days it should take from
collection in the field to receipt in the labs. We based this on MSHA’s 3-day air and mine
dust mailing standard and added 4 days for mail delivery for coal samples and 7 days
mail delivery for MNM samples. Based on this 7 or 10-day calculation, the PSHTC
received approximately 16 percent of its samples late in FYs 2012 and 2013. Without a
clearly defined performance standard, MSHA cannot adequately monitor if samples are
submitted timely. Table 2 shows the total calculated cycle time for each sample type.



7
  Four People Performance Measures: Many Attributes of Successful Measures Met; Opportunities Exist for Further
Enhancements (GAO/OIG-09-3), August 2009.
8
  Performance measures should also be: (1) aligned with division and agency-wide goals and mission (the measure
covers a priority, such as quality or timeliness); (2) reasonably free from significant bias or manipulation; (3) cover the
activities that an entity is expected to perform; and (4) provide new information.

                                                                                Timeliness of MSHA Laboratories
                                                            7                      Report No. 05-14-002-06-001
                                       U.S. Department of Labor – Office of Inspector General


When we included estimated collection and mailing time as part of a full cycle time
measurement, we found MSHA met these standards for 95 percent of its coal respirable
dust samples, 35 percent of its mine air/gas samples, 93 percent of its coal quartz
samples,
85 percent of its
                               Graph 2: Percent of Samples Meeting Estimated Full
MNM respirable
                                                   Cycle Times
dust samples,
and 76 percent of    100%
                      90%
its MNM total dust    80%
samples during        70%                                                           FY 2012
FY 2013. MSHA         60%
                      50%                                                           FY 2013
met these             40%
standards for         30%
75 percent of its     20%
                      10%
mine air samples       0%
and 60 percent of
its mine dust
samples during
FY 2013, the year
the standards
were adopted by
that lab (see
Graph 2).
                     * The FY 2012 NADL mine air/gas TAT goal could not be calculated because the
                     data was not available.
Timely Reporting

MSHA could not always report sample analysis results within established TATs to the
submitting field offices. This occurred because mine inspectors did not always
successfully upload sample data to MSIS in a timely manner. Failure to timely upload
data causes the labs to report sample analysis results beyond the established TAT
goals. As a result, MSHA may not be able to utilize the sample analysis results to
support the gravity of the enforcement action in settlement negotiations or legal
hearings.

The Inspector’s Portable Application for Laptops (IPAL) is an MSHA computer program
that assists inspectors in maintaining inspection data. The program interfaces with MSIS
and allows a seamless transfer of enforcement and inspector data into and out of the
system. The implementation of IPAL was intended to minimize transcription errors and
to expedite processing by reducing the labor needed to input sample data into LIMS.

According to GAO’s Standards for Internal Control in the Federal Government,
“information should be recorded and communicated to management and others within a
timeframe that enables them to carry out their responsibilities.” MSHA’s policy states,
“Inspectors are responsible for assuring that information they have entered into the
IPAL program occurs on a regular and timely [emphasis added] basis.” Because


                                                             Timeliness of MSHA Laboratories
                                              8                 Report No. 05-14-002-06-001
                                      U.S. Department of Labor – Office of Inspector General


MSHA’s policies and procedures do not define “regular and timely,” this guidance is
open to interpretation. The MSHA labs rely on inspectors to input and upload sample
identifying data to IPAL within reasonable timeframes. We found inspectors did not
always transmit data to MSIS on a timely basis for MNM respirable dust, MNM total
dust, mine dust, and the NADL air/gas samples. Specifically, in 10 percent of the
samples we reviewed, data uploads occurred more than 5 working days after receipt.

MSHA is in the process of upgrading its systems to automate the uploading process.
According to MSHA, the automated uploads would eliminate this issue. In the interim,
MSHA is developing an IPAL enhancement to make the upload notification messages
received by inspectors more noticeable to ensure inspectors are aware when uploads
fail or further action is needed. MSHA also plans to provide additional guidance and
training to inspectors.

Recommendations

We recommend the Assistant Secretary for MSHA:

   1. Re-evaluate the appropriateness of the TATs for mine air/gas and MNM total
      dust samples;

   2. Establish and implement collection and mailing time standards for MNM total
      dust, MNM respirable dust, coal quartz, and coal respirable dust samples not
      overnighted by an inspector or submitted by a mine operator;

   3. Establish agency performance standards and supporting policies based on full
      life cycle sampling, from sample collection through lab processing, and
      implement a system for tracking life cycle samples exceeding the goals for all
      sample types;

   4. Consider pursuing accreditation for the mobile labs if practical and economically
      feasible; and

   5. Take steps needed to ensure IPAL uploads occur within specific timeframes by
      defining timeliness goals for all sample types and addressing any technical
      issues that may prevent timely and successful IPAL uploads.

MSHA’s Response

The Assistant Secretary for MSHA generally agreed with the audit results. MSHA
re-evaluated and adjusted the TATs for mine dust, air and MNM total dust samples.
Specifically, MSHA reduced the TAT for mine dust from 9 days to 5 days and air
samples from 7 days to 5 days. MSHA increased the MNM total dust TAT from 2 days
to 5 days. MSHA also plans on revising its procedures to reflect goals for full life cycle
sampling, from sample collection through lab processing, and to implement a system for
monitoring life cycle samples. However, MSHA noted this cannot be completed without


                                                           Timeliness of MSHA Laboratories
                                            9                 Report No. 05-14-002-06-001
                                      U.S. Department of Labor – Office of Inspector General


modifications to both IPAL and MSIS. MSHA estimates this would cost $400,000.
MSHA indicated that based on technical and resource issues, it is not practical or
feasible to pursue accreditation for its mobile labs. MSHA believes the quality control
measures and SOPs already in place are adequate and have been effective for the past
30 years of mine emergency operations. Further, MSHA has already begun the process
of making system upgrades to automate the IPAL upload process. In August 2014,
MSHA’s Directorate of Program Evaluation and Information Resources developed and
implemented a modification to the IPAL computer application, which notifies inspectors
when data upload errors occur. MSHA indicated this application has improved the
timeliness of uploads, further reducing the possibility of delays in reporting sample
analyses to enforcement.

We appreciate the cooperation and courtesies MSHA personnel extended to the OIG
during this audit. OIG personnel who made major contributions to this report are listed in
Appendix D.




Elliot P. Lewis
Assistant Inspector General
 for Audit




                                                           Timeliness of MSHA Laboratories
                                           10                 Report No. 05-14-002-06-001
             U.S. Department of Labor – Office of Inspector General




Appendices




                                  Timeliness of MSHA Laboratories
                  11                 Report No. 05-14-002-06-001
         U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                              Timeliness of MSHA Laboratories
              12                 Report No. 05-14-002-06-001
                                      U.S. Department of Labor – Office of Inspector General


                                                                              Appendix A
Objectives, Scope, Methodology, and Criteria

Objectives

The OIG conducted this performance audit to answer the following questions:

   •    Has MSHA established and implemented timeliness performance
        standards for sample collection, analysis, and results reporting?

   •    Is MSHA meeting the established performance standards?

Scope

Our audit work covered all samples received by the PSHTC and NADL labs for
FYs 2012 and 2013.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.

Methodology

To accomplish our audit objectives, we: (1) reviewed MSHA’s policies and procedures,
including lab SOPs, to determine if the PSHTC and NADL established and implemented
timeliness performance standards; (2) interviewed MSHA Headquarters, PSHTC and
NADL staff; (3) conducted walkthroughs of the various labs at the PSHTC and NADL to
gain an understanding of the sample receipt, analysis and reporting processes; and
(4) reviewed information provided by MSHA.

To determine if the labs met the established performance standards, we used the data
provided by MSHA to calculate the length of time from: (1) sample collection to sample
receipt; (2) sample receipt to reported/approved date; and (3) sample collection to IPAL
upload. Our calculations excluded the sample collection date or sample receipt date,
weekends, and federal holidays. We reviewed all samples received at the PSHTC and
NADL during FYs 2012 and 2013.

Data Reliability

To determine the reliability of MSHA’s sample data, we: (1) identified specific data
elements from MSIS that were critical to supporting our audit analyses; (2) obtained
data for all samples the two MSHA labs received during FYs 2012 and 2013;
(3) developed and completed steps to assess the completeness and accuracy

                                                           Timeliness of MSHA Laboratories
                                            13                Report No. 05-14-002-06-001
                                      U.S. Department of Labor – Office of Inspector General


(i.e., reliability) of the data; (4) traced dates (sample collection, sample receipt,
reported/approved) input into LIMS to source documents (MSHA forms, dust data cards,
daily batch reports); and (5) followed up with MSHA to clarify the meaning of the data
and address discrepancies identified. We determined the data was sufficiently reliable
for our testing purposes.

Internal Controls

In planning and performing our audit, we considered MSHA’s internal controls that were
relevant to our audit objectives by obtaining an understanding of those controls and
assessing control risk for the purposes of achieving our objectives. The objective of our
audit was not to provide assurance on the internal controls. Therefore, we did not
express an opinion on the internal controls as a whole. Our consideration of MSHA’s
internal controls relevant to our audit objectives would not necessarily disclose all
matters that might be reportable conditions. Because of the inherent limitations on
internal controls, noncompliance may nevertheless occur and not be detected.

Criteria

   •   Federal Mine Safety and Health Act of 1977, Sections 202 – 206

   •   MSHA Coal Mine Health Inspection Procedures Handbook
       (PH89-V-1(23), July 2012

   •   MSHA Metal Nonmetal Health Inspection Procedures Handbook
       (PH06-IV-1(1)), October 2006

   •   Coal Mine Safety and Health General Inspection Procedures Handbook
       (PH13-V-1), February 2013

   •   Metal and Nonmetal General Inspection Procedures Handbook
       (PH13-IV-1), April 2013

   •   PSHTC Standard Operating Procedures

   •   NADL Standard Operating Procedures




                                                           Timeliness of MSHA Laboratories
                                           14                 Report No. 05-14-002-06-001
                                 U.S. Department of Labor – Office of Inspector General


                                                                         Appendix B
Acronyms and Abbreviations

FY              Fiscal Year

GAO             Government Accountability Office

IPAL            Inspector’s Portable Application for Laptops

LIMS            Laboratory Information Management System

MNM             Metal/Nonmetal

MSHA            Mine Safety and Health Administration

MSIS            MSHA Standardized Information System

NADL            National Air and Dust Laboratory

OIG             Office of Inspector General

PSHTC           Pittsburgh Safety and Health Technology Center

SOP             Standard Operating Procedures

TAT             Turnaround Time




                                                      Timeliness of MSHA Laboratories
                                      15                 Report No. 05-14-002-06-001
         U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                              Timeliness of MSHA Laboratories
              16                 Report No. 05-14-002-06-001
                                U.S. Department of Labor – Office of Inspector General


                                                                        Appendix C
MSHA Response to Draft Report




                                                     Timeliness of MSHA Laboratories
                                     17                 Report No. 05-14-002-06-001
U.S. Department of Labor – Office of Inspector General




                     Timeliness of MSHA Laboratories
     18                 Report No. 05-14-002-06-001
U.S. Department of Labor – Office of Inspector General




                     Timeliness of MSHA Laboratories
     19                 Report No. 05-14-002-06-001
         U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                              Timeliness of MSHA Laboratories
              20                 Report No. 05-14-002-06-001
                                     U.S. Department of Labor – Office of Inspector General


                                                                             Appendix D
Acknowledgements

Key contributors to this report were Nicholas Christopher (Audit Director), Robert
Swedberg (Audit Manager), S. Marisela Sookraj (Audit Manager), Kathleen Mitomi,
Richard Bryan, Charmane Miller, Carmelle Paytes, and Mary Lou Casazza.




                                                          Timeliness of MSHA Laboratories
                                          21                 Report No. 05-14-002-06-001
         U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                              Timeliness of MSHA Laboratories
              22                 Report No. 05-14-002-06-001
TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

Online:   http://www.oig.dol.gov/hotlineform.htm
Email:    hotline@oig.dol.gov

Telephone:      1-800-347-3756
                202-693-6999

Fax:            202-693-7020

Address: Office of Inspector General
         U.S. Department of Labor
         200 Constitution Avenue, N.W.
         Room S-5506
         Washington, D.C. 20210
